ES, IG-99-023, Commercial Remote Sensing Program Office
COMMERCIAL REMOTE SENSING PROGRAM OFFICE
IG-99-023
Executive Summary
Background
NASA officials designated the John C. Stennis Space Center (Stennis) as the
Lead Center for commercial remote sensing.  The Commercial Remote Sensing
Program Office (CRSPO) at Stennis is responsible for developing commercial
initiatives to meet Stennis' charter.  In addition to internally developed
initiatives, the CRSPO administered a congressionally directed program to
purchase commercial Earth science data.  Congress and the Office of
Management and Budget directed NASA to initiate a commercial data buy
program that would acquire Earth science data products.  NASA's fiscal
year 1997 appropriation contained $50 million to accomplish those
purchases.  During Phase I of the program, the CRSPO awarded 10 contracts
totaling about $4.3 million.  During Phase II, the CRSPO awarded five
contracts totaling about $42.8 million.  The program office will expend the
data buy funds by September 2001.
Objectives
The specific audit objectives were to determine whether:
the Commercial Data Buy Program will help achieve Earth Science
Enterprise (ESE) goals;
future congressionally directed data buy programs are warranted;
and
the CRSPO initiatives have resulted in commercial entities that can
contribute products to help achieve ESE goals.
Details on the objectives, scope, and methodology are in Appendix A.
Results of Audit
The congressionally directed Commercial Data Buy Program has helped achieve
ESE goals.  However, additional congressionally directed data buy programs
are not warranted.  The CRSPO awarded five contracts for commercial remote
sensing products.  Those five contracts will result in commercial products
relating to two Earth science themes:  land cover/land use change research
and natural hazards research.  For example, one of the five awards was for
the compilation of two decades of Landsat observations.  This product will
be valuable to Earth scientists because it will provide a single source of
Landsat data.  However, the CRSPO should design more specific initiatives to
promote the use of commercial remote sensing products.  Although initiatives
have been successful at developing the commercial remote sensing industry,
the program office has not leveraged(1) this industry to ensure products are
provided that meet baseline scientific requirements.  As a result, the CRSPO
has been unable to fulfill its goal to reduce NASA's costs of remote sensing
science and technology programs through competition within the commercial
remote sensing industry.
Other Matters of Interest
During the audit, we expressed concern about Agency compliance with the
Government Performance and Results Act of 1993 and the need for CRSPO
performance measures.  Program office officials hired a consulting firm to
develop performance measures.  Once the program office establishes
performance measures, the ESE should be able to comply with the Act's March
2000 reporting requirements.  Therefore, we are making no recommendations at
this time.  Details on this issue are in Appendix B.
Recommendations
We recommend that the ESE publish a baseline of scientific requirements that
will foster competition within the commercial remote sensing industry.  The
program office should use this baseline in initiatives to fulfill ESE
scientific requirements at the lowest cost.
Management's Response
Management concurred with the report recommendations.  The response is summarized in the body of the report and is included in Appendix C.
Evaluation of Management's Response
We considered management's comments responsive; however, both recommendations
will remain open until additional comments that describe the planned, ongoing,
and completed corrective actions are received.
FOOTNOTE
1.  The CRSPO has not made effective use of NASA's investment in the commercial remote sensing industry.